OFFICE OF INSPECTOR GENERAL

                Briefing
          Retirement Experience
                   of the
   Employees of the Long Island Rail Road
     Under the Railroad Retirement Act

            November 24, 2008




  RAILROAD RETIREMENT BOARD
                     1
                                         Briefing
           Retirement Experience of the Employees of the Long Island Rail Road

The purpose of this presentation is to provide a briefing concerning the
retirement experience of employees of the Long Island Rail Road (LIRR) within
the context of the railroad retirement program as a whole.

Retirement Under the Railroad Retirement Act
The Railroad Retirement Board (RRB) administers the retirement and survivor
provisions of the Railroad Retirement Act (RRA). Older railroad workers who
have met the age and service requirements of the Act may retire under the
RRA’s non-disability provisions. 1 We will refer to this as Non-Disability
Retirement.

Younger workers may be entitled to benefits under the disability provisions of the
RRA. Similar to the Social Security Act, the RRA provides retirement benefits to
individuals who are disabled from all employment. Unlike the Social Security Act,
the RRA also provides benefits to individuals who are disabled from the work
they perform in the railroad industry, but who might otherwise find employment
elsewhere.

      • The RRA provides for disability benefits to workers who have worked for
        at least 10 years in the railroad industry, and who are totally disabled
        from all employment in the national economy. We will refer to this as
        Total Disability.
      • The RRA also provides for disability benefits to workers who have
        worked for at least 20 years in the railroad industry, have a current
        connection to the rail industry, and who are unable to perform the work of
        their regular railroad occupation. 2 We will refer to this as Occupational
        Disability.

As a whole, the railroad retirement program has been shrinking. The annual
number of non-disability retirements under the RRA fell throughout the 1990’s,
but rose slightly after passage of the Railroad Retirement and Survivors’
Improvement Act of 2001 (RRSIA). 3 By comparison, retirements under the
disability provisions of the RRA remained relatively constant, showing only
moderate variance, for both total and occupational disability.

The following chart illustrates the trends in retirement under the non-disability,
total disability and occupational disability retirement provisions of the RRA.



1
  For example, under the RRA, aged workers may receive retirement annuities if they have
reached age 60 and worked in the railroad industry for 30 years of service or have reached age
62, the minimum retirement age for workers under the Social Security Act.
2
  In most cases a worker has a “current connection” if he/she has not been employed outside the
railroad industry since leaving their last railroad employer.
3
  A discussion of the full impact of RRSIA is beyond the scope of this document.


                                               1
                                            Briefing
              Retirement Experience of the Employees of the Long Island Rail Road



                               Number of Benefits Awarded Annually
                                       1990 through 2007
                                            by Type

Number of Awards
  15,000
  14,000                                                                     Non-Disability Retirements
  13,000                                                                     Retirement Under Total Disability Standards
                                                                             Retirement Under Occupational Disability Standards
  12,000
  11,000
  10,000
   9,000
   8,000
   7,000
   6,000
   5,000
   4,000
   3,000
   2,000
   1,000
      0
           1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007

                                              Calendar Year of Award


                 Note:

                     1.   The abnormal increase in non-disability awards in 2002 is
                          primarily due to administrative activity related to RRSIA and does
                          not indicate an increase in benefit awards.

                     2.   The increase in non-disability retirements after 2001 may be
                          attributed to the liberalized vesting provisions of RRSIA that
                          allowed certain workers to retire under the RRA who would have
                          otherwise retired under the Social Security Act.




                                                     2
                                       Briefing
         Retirement Experience of the Employees of the Long Island Rail Road

Disability Experience of the Railroad Retirement Program

We analyzed all benefits awarded to former railroad workers during calendar
years 1990 to 2007. During that period the RRB made 242,435 benefit awards to
the employees of 1,238 railroad employers

Approximately 34% of all benefits during calendar years 1990 through 2007 were
awarded under the disability provisions of the RRA.

Occupational disabilities comprised about 25% of all benefit awards while total
disabilities accounted for about 9%. Non-disability retirements accounted for the
remaining two-thirds of all benefit awards under the RRA. The following chart
illustrates the distribution of RRA benefit awards by type.



                              All Benefits Awarded Under the RRA
                                       1990 through 2007
                                            by Type


                  Occupational
                   Disability
                    61,388
                     25%




           Total Disability
               22,868                                              Non - Disability
                 9%                                                 Retirement
                                                                      158,179
                                                                        66%




The RRB automatically applies the occupational disability provisions to those
applicants who meet the minimum 20 year service requirement and have a
current connection to the railroad industry, regardless of the type or severity of
their disabling condition. The applications of those who do not meet this
minimum eligibility requirement are evaluated under the total disability provisions
of the law.



                                              3
                                       Briefing
         Retirement Experience of the Employees of the Long Island Rail Road

Disability Experience of the LIRR Retirees
By comparison, the disability experience of LIRR retirees was much different
than that of the railroad retirement population as a whole.

During calendar years 1990 through 2007, 5,033 annuities were awarded to
LIRR retirees, an average of 280 per year. Approximately 69% of these benefits
were awarded under the disability provisions of the RRA.

Occupational disabilities comprised about 65% of all benefits awarded to former
LIRR employees while total disabilities accounted for about 4%. Non-disability
retirements accounted for only 31%. The following chart illustrates the
distribution of RRA benefit awards by type.



               RRA Benefits Awarded to Former Employees of the LIRR
                                1990 through 2007
                                     by Type

                                                                Non -
                                                              Disability
                                                             Retirement
                                                                1,545
                                                                 31%




            Occupational                                         Total
             Disability                                        Disability
               3,300                                              188
                65%                                               4%




The data show that between 1990 and 2007 the percentage of former LIRR
retirees were awarded annuities by reason of occupational disability at a rate of
about 65%, more than twice the 25% rate experienced by the railroad retirement
program as a whole.




                                         4
                                           Briefing
             Retirement Experience of the Employees of the Long Island Rail Road

Disability Experience of Retirees of Largest Railroad Employers 4
We also considered the experience of the retirees of largest railroad employers,
such as the LIRR, to see if LIRR experience was similar. We compared the LIRR
experience to both the group as a whole and to individual employers within that
group.

As previously stated, the RRB made 242,435 benefit awards to the employees of
1,238 railroad employers during 1990 through 2007. However, about 77% of
these awards were to the former employees of just 16 railroads.

In the aggregate, retirees of the 16 largest employers were awarded occupational
benefits at a rate similar to that of the entire population of retirees.

                             Benefits Awarded to Former Employees
                                  of the 16 Largest Employers
                                       1990 through 2007
                                             by Type



                   Occupational
                    Disability
                      52,546
                       28%




                                                                      Non-Disability
                       Total
                                                                         116,455
                     Disability
                                                                           63%
                      16,620
                        9%




In the aggregate, the retirees of the 16 largest employers experienced a much
lower rate of disability retirement than retirees of the LIRR. About 28% of all
awards to retirees of these employers were granted by reason of occupational
disability as compared with about 65% for LIRR retirees (see chart on page 4).




4
    Based on the number of benefit awards to former employees of the railroad.


                                                 5
                                                      Briefing
                        Retirement Experience of the Employees of the Long Island Rail Road

Individually, the retirees of the LIRR have the highest rate of occupational
disability retirements among the 16 largest railroad employers described above.
The chart below presents the disability award experience for the retirees of each
of these railroads.

The chart below compares the percentage of awards granted under the
occupational disability provisions of the RRA with the percentage granted under
total disability provisions of the law for each of the 16 largest railroad employers
discussed above.

 70%

                                                                                                                                                                                              Percent Occupational

 60%                                                                                                                                                                                          Percent Total Disability




 50%


 40%


 30%


 20%


 10%


  0%
                                                                                                                                                                                N




                                                                                                                                                                                                                                              R
                                                                                                                                                                                                                               AL
                                                                                                                                                                                                               N
                                                                                                                   FE
                                                                        IL
                                                           RN




                                                                                                     AK




                                                                                                                                                    AD
                    N




                                  IC




                                               AY




                                                                                                                                   L




                                                                                                                                                                                                 S
                                                                                                                                                                    E
                                                                                       IC




                                                                                                                                                                              R




                                                                                                                                                                                                                                            TE
                                                                                                                                                                                                             ER
                                                                                                                                  RA




                                                                                                                                                                                              ES
                                                                                                                                                                    N
                  O




                                                                      RA
                                 F




                                                                                      F




                                                                                                                                                                            TE




                                                                                                                                                                                                                              R
                                                        HE




                                                                                                                                                   O
                                               W




                                                                                                               TA




                                                                                                                                                                  LI
                                                                                                    TR
                TI




                              CI




                                                                                   CI




                                                                                                                                                                                                                                         U
                                                                                                                                                                                                                           NT
                                                                                                                                                                                                              T
                                                                                                                                                                                          PR
                                                                                                                               NT




                                                                                                                                               R
                                            IL
               RA




                                                                                                                                                                           ES
                                                                    ED




                                                                                                                                                                                                                                        M
                                                                                                                                                                                                           ES
                             PA




                                                                                                                                                              O
                                                                                  PA
                                                      UT




                                                                                                AM




                                                                                                               N




                                                                                                                                               L




                                                                                                                                                                                                                        CE
                                          RA




                                                                                                                                                                                                                                       M
                                                                                                                                                          SO




                                                                                                                                                                                        EX
                                                                                                                            CE
                                                                                                             SA




                                                                                                                                            AI




                                                                                                                                                                          W
              O




                                                                  AT




                                                                                                                                                                                                       W
                                                    SO




                                                                                                                                                                                                                                    CO
                          N




                                                                              N
           RP




                                                                                                                                                                        TH
                                                                                                                                        R




                                                                                                                                                                                                                    N
                        ER




                                       SF




                                                                                                                                                                                      A
                                                                             IO




                                                                                                                          IS




                                                                                                                                                                                                       K
                                                                                                          &
                                                                  D




                                                                                                                                                                                                                    N
                                                   LK




                                                                                                                                       ND




                                                                                                                                                                                                     UN
                                                                LI




                                                                                                                                                                                                                                   H
          O




                                                                                                                        O




                                                                                                                                                                                    E
                                                                                                                                                                      R
                                                                         UN




                                                                                                        KA
                                     BN




                                                                                                                                                                                                                  PE
                      H




                                                                                                                                                                                                                                RT
                                                                                                                                                                    NO
                                                              O




                                                                                                                      N
      C




                                                                                                                                                                                  R
                    UT




                                                  O




                                                                                                                                   LA




                                                                                                                                                                                               TR
                                                                                                                    LI
                                                           NS




                                                                                                     PE
      X




                                               RF




                                                                                                                                                                                                                               O
                SO




                                                                                                                   IL
   CS




                                                                                                                                                                   D
                                                                                                                                 IS




                                                                                                                                                                                                                              -N
                                                                                                                                                                                              D
                                                                                                    TO
                                                        CO
                                            NO




                                                                                                                                                               AN




                                                                                                                                                                                            AN




                                                                                                                                                                                                                           O
                                                                                                                              NG
                                                                                                N




                                                                                                                                                                                                                          R
                                                                                                                                                              O




                                                                                                                                                                                          R
                                                                                                                            LO




                                                                                                                                                                                                                        ET
                                                                                               SO




                                                                                                                                                          AG




                                                                                                                                                                                        G




                                                                                                                                                                                                                    M
                                                                                            HI




                                                                                                                                                         IC
                                                                                            C




                                                                                                                                                     CH
                                                                                          AT




Examined on a railroad-by-railroad basis, the LIRR is distinguished by presenting
the highest rate of occupational disability among the largest employers.




                                                                                                                    6
                                                       Briefing
                         Retirement Experience of the Employees of the Long Island Rail Road

Trend Analysis
For the period 1990 through 2007, we considered benefits awarded under the
occupational disability provisions of the RRA each year, expressed as a
percentage of all benefits awarded under the Act during that year.

Our analysis identified periods of moderate upward and downward trends for the
population as a whole. However, the same statistics for retirees of the LIRR
disclosed a steep increase in the rate at which former LIRR employees were
awarded benefits under the occupational provisions of the RRA.

In 1990, 25% of all retirements were by reason of occupational disability, by 1995
that statistic had jumped to 45%; by 2000 it was 71%. In 2007, about 80% of
annuities awarded to former employees of the LIRR were awarded under the
occupational disability provisions of the RRA.

                                                               Occupational Disability Benefits Awarded
                                                                  Under the Railroad Retirement Act
                                                                            1990 to 2007
                                                                           As A Percentage of All Retirements




                                                                                                                                                         2003 81% 2004 81%                            2007 80%
                                                                                                                                            2002 78%                            2005 78%
                                                                                                                                                                                           2006 76%
                                                                                                                                2001 74%

                                                                                                          1999 71% 2000 71%



                                                                                  1997 65%
                                                                                             1998 62%
                                                                       1996 60%
                                                                                                                                           Retirees of the Long Island Railroad

                                                                                                                                           All Retirees
                                               1994 54%




                                                            1995 45%


                                    1993 40%

                         1992 37%




            1991 30%                                                                                                                   %
                                                                                                                                     35
                                                                                                                                  01
                                                                                                                            %   20
                                                                                                      %        32
                                                                                                                 %        32
                                                                                                    31      99         00
 1990 25%                                                                                %     98         19         20
                                                                   %        %          30    19
                                                                 28       29        97                                                                           %
                                                              95       96         19                                                                           28           %
                                                      26
                                                        %   19       19                                                                                     03            27
                                                 94                                                                                                       20           04              %
                                               19                                                                                                    %               20              25
                                                                                                                                                   24                             05            23
                                                                                                                                                                                                  %
                                           %                                                                                                  02                                20
                                         22                                                                                                 20                                               06
                                %     93                                                                                                                                                   20
                     %        20    19
                   19      92                                                                                                                                                                              19
                                                                                                                                                                                                             %
              91         19                                                                                                                                                                             07
        %   19                                                                                                                                                                                        20
      17
   90
 19




                                                                                                          7
                                                                         Briefing
                                           Retirement Experience of the Employees of the Long Island Rail Road



The following chart compares the experience of LIRR retirees with the experience of the retirees of
other railroads for calendar years 1990 through 2007. This analysis shows a continuous, steep,
increase in the proportion of occupational disability retirements among LIRR retirees which is not
seen among retirees of other railroads.
                                       Occupational Disability Benefits Awarded Under the Railroad Retirement Act
                                                                   1990 through 2007
                                                                        as a Percentage of All Retirements
                    CSX                                    Southern Pacific                     BNSF                              Norfolk Southern
                    Consolidated Rail                      Union Pacific                        Amtrak                            Atcheson, Topeka, Santa Fe
                    Illinois Central                       Long Island Railroad                 Soo Line                          Chicago & Northwestern
                    REA Express                            Grand Trunk Western                  Penn Central                      Metro-North Commuter
                    All Other Railroads
                                                                                                                                                                100%




                                                                                                                                                                90%


                                                        LIRR                                                                    81%
                                                                                                                         81%                             80%
                                                                                                                  78%                   78%                     80%
                                                                                                                                                76%
                                                                                                           74%

                                                                                         71%      71%

                                                                                                                                                                70%
                                                                            65%
                                                                                  62%
                                                                  60%
                                                                                                                                                                60%

                                                 54%


                                                                                                                                                                50%
                                                         45%


                                          40%

                                 37%                                                                                                                            40%




                       30%
                                                                                                                                                                30%
              25%



                                                                                                                                                                20%




                                                                                                                                                                10%




                                                                                                                                                                0%
             1990     1991      1992      1993   1994    1995    1996      1997   1998   1999     2000     2001   2002   2003   2004    2005    2006     2007


                                                                                         8
                                       Briefing
         Retirement Experience of the Employees of the Long Island Rail Road

Source:

The data used in this briefing was developed from the RRB’s Employee Master
Benefit File for September 2008.


For Further Information
For further information contact:

       Letty Benjamin Jay
       Assistant Inspector General for Audit
       Office of Inspector General
       U.S. Railroad Retirement Board
       844 North Rush Street
       Chicago, Illinois 60646

       Telephone:    312-751-4341
       EMAIL:        ljay@oig.rrb.gov




                                         9
